<html>
<title> - HEARING ON LOOKING OUT FOR THE VERY YOUNG, THE ELDERLY AND OTHERS WITH SPECIAL NEEDS: LESSONS FROM KATRINA AND RELATED DISASTERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 LOOKING OUT FOR THE VERY YOUNG, THE ELDERLY, AND OTHERS WITH SPECIAL 
           NEEDS: LESSONS FROM KATRINA AND RELATED DISASTERS

=======================================================================

                                (111-71)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 20, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
52-957 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)



 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Manning, Tim, Deputy Administrator, National Preparedness 
  Directorate, Federal Emergency Management Agency...............     6
Riggen, Trevor, Senior Director, Direct Services, American Red 
  Cross..........................................................     6
Shriver, Mark, Chairman, National Commission on Children and 
  Disasters......................................................     6
Vaughn, John, Chairperson, National Council on Disability........     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    40
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    41
Oberstar, Hon. James L., of Minnesota............................    43

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Manning, Tim.....................................................    45
Riggen, Trevor...................................................    61
Shriver, Mark....................................................    71
Vaughn, John.....................................................    83

                       SUBMISSIONS FOR THE RECORD

Manning, Tim, Deputy Administrator, National Preparedness 
  Directorate, Federal Emergency Management Agency, reponses to 
  questions from the Subcommittee................................    50
Riggen, Trevor, Senior Director, Direct Services, American Red 
  Cross, responses to questions from the Subcommittee............    68
Shriver, Mark, Chairman, National Commission on Children and 
  Disasters, responses to questions from the Subcommittee........    78
Vaughn, John, Chairperson, National Council on Disability, 
  responses to questions from the Subcommittee...................   110

                        ADDITIONS TO THE RECORD

Office of Emergency Preparedness - City of New Orleans, Lt. 
  Colonel, Jerry Sneed:
      Written testimony..........................................   123
      Fact Sheets................................................   129

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
HEARING ON LOOKING OUT FOR THE VERY YOUNG, THE ELDERLY AND OTHERS WITH 
       SPECIAL NEEDS: LESSONS FROM KATRINA AND RELATED DISASTERS

                              ----------                              


                       Tuesday, October 20, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:12 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [chairwoman of the Subcommittee] presiding.
    Ms. Norton. Welcome to today's important hearing.
    On September the 7th, 2007, Representative Corrine Brown, 
who is trying to join us this afternoon, introduced H.R. 3495, 
the Kids in Disasters Well-Being, Safety, and Health Act of 
2007, a bill I was pleased to cosponsor. Provisions of H.R. 
3495 were later incorporated into H.R. 2764, the Consolidated 
Appropriations Act of 2008, which became public law number as 
shall be indicated in December.
    H.R. 3495 created a National Commission on Children and 
Disasters to conduct a comprehensive study, examining and 
assessing the needs of children as they relate to recovery, 
preparation, and response for all hazards, including 
catastrophes, disasters, and emergencies.
    Hurricane Katrina exposed many problems concerning the 
Nation's ability to meet the needs of children during 
disasters. About a quarter of the people who lived in areas 
damaged or flooded by Hurricane Katrina were under age 18. More 
than 400,000 children under the age of 5 lived in or were 
evacuated from counties and parishes that were declared 
disaster areas by FEMA as a result of Hurricane Katrina.
    The vulnerability of kids presented many unique issues. For 
example, 5,192 children were reported missing or displaced by 
the National Center for Missing and Exploited Children as a 
result of Hurricanes Katrina and Rita, and it took 6-1/2 months 
to reunite the last child separated from her family. In 
addition, 1,100 schools were closed immediately following 
Hurricane Katrina.
    These statistics reveal the importance of examining the 
special needs of children in disasters. A specific focus on 
children, therefore, is justifiably the Commission's special 
concern.
    Although we took a proactive role in directing the creation 
of a commission concerning the well-being, safety, and health 
of children in disasters, we had previously recognized the 
importance of assuring that FEMA addresses the needs of all 
vulnerable populations caught in disasters. FEMA is responsible 
for encouraging local and State governments to plan for 
evacuations of all special needs populations.
    Our post-Katrina Emergency Management Reform Act of 2006 
requires FEMA to other appoint a disabilities coordinator to 
ensure that the needs of individuals with disabilities are 
properly addressed in a disaster. The special needs population 
must also include hospital and nursing home patients who may 
not be able to move quickly because of their health. The worst 
example during Hurricane Katrina involved 34 people who died in 
a nursing home waiting for help for days in the heat of August 
without power, air conditioning, sanitation, or running water 
at temperatures in the building approaching 110 degrees. Some 
of the elderly and disabled in New Orleans simply drowned when 
they were left behind.
    The New York Times reported on the work of Dr. Ann Powell, 
a physician who was working in the middle of Hurricane Katrina 
and was also forced to make several difficult decisions in the 
absence of clear standards of care for very sick patients 
trapped in her hospital. Since Hurricane Katrina, Dr. Powell 
has been a leading proponent for changing the law and 
establishing a standard of care in the event of disaster or 
pandemic.
    Persons with disabilities are the third largest minority 
group in the United States, numbering over 32 million. If 
people with impairments are included, the number increases to 
over 51 million. In addition, there are approximately 5 million 
disabled children and youth under the age of 18.
    After Hurricane Katrina, Congress recognized that the 
disabled must receive special focused attention. Now FEMA must 
use the National Commission on Children and Disasters' final 
interim report to think critically and objectively about 
guidance to State and local jurisdictions on the care of 
children, in particular in a disaster. Children and other 
vulnerable populations have unique needs that demand focused 
action plans that ensure the same survival for them in disaster 
as for other Americans.
    Several of our witnesses today have stories to share that 
will remind us of what is at stake for children and citizens 
with disabilities and why there must be no more delay in 
building a comprehensive plan for addressing the needs of our 
children and other vulnerable populations in a disaster.
    I welcome today's witnesses, look forward to their 
testimony and am pleased to hear any opening remarks from our 
Ranking Member, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Let me thank you first, Madam Chairwoman, 
for holding this important hearing. As a Floridian this is the 
kind of hearing that hits home, literally hits home.
    Last month we held a hearing on the Integrated Public Alert 
and Warning System and whether those with disabilities or those 
with limited English proficiency are able to adequately receive 
alerts and warnings when an imminent hurricane, storm, or other 
disaster is coming. Now, unfortunately we found that much work 
still remains to be done.
    Today we are focusing more broadly on the issues of whether 
emergency preparation, response, and recovery--if those efforts 
have adequately or do adequately address the needs of the very 
young, of the elderly, and others who--varied others who may 
have also a number of different special needs.
    In 2004, President Bush issued an executive order 
establishing that it is the policy of the Federal Government to 
ensure that the needs of individuals with disabilities are 
incorporated in the planning for disasters.
    In 2008, Congress established a National Commission on 
Children and Disasters to study and report on the needs of 
children in preparing for and to respond after disasters. 
Congress also charged the National Council on Disability with 
examining the inclusion of people with disabilities in 
emergency preparation and established a disability coordinator 
within FEMA.
    So there have been some efforts and there has obviously 
been some emphasis from both the executive and also Congress. 
Notwithstanding these efforts, unfortunately, work still 
remains to be done.
    For example, according to the National Council on 
Disability, many emergency managers and people with 
disabilities remain unprepared for a disaster and disaster 
planning continues without full consultation or even 
participation of people with disabilities, which is obviously 
contrary to what we are trying to do. And as highlighted in the 
National Commission on Children and Disasters' interim report, 
there are still inadequacies for the care of children in 
various aspects of emergency management. Again, we still have a 
long way to go.
    This implementation of clear policies is absolutely 
unacceptable because the consequences, as the Chairwoman was 
saying a little while ago, can be very dire and tragic.
    Following Hurricane Katrina, thousands of children were 
separated from their families and there were so many accounts 
of individuals with disabilities and seniors who were unable to 
evacuate, and we have seen and we know what resulted from that 
scenario.
    With nearly half of our population either living with 
disability or under the age of 18, we must ensure that the 
interests and the needs of these individuals are fully, fully 
incorporated in our planning, in our response to and recovery 
from disasters. And as we will hear today, each of these 
categories of individuals, whether it is children or seniors, 
people with disabilities, have unique, unique issues that must 
be examined and addressed in our emergency management system, 
again, as the Chairwoman so eloquently said a little while ago. 
Otherwise the consequences can be tragic.
    I again thank you all for being here. It is a privilege to 
have you all here. I appreciate your time. I look forward to 
hearing from the witnesses, Madam Chairwoman, and I thank you 
for having this very important hearing.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    In light of the fact that the author of the bill has 
arrived and is a Subcommittee Chair on a parallel Committee, I 
am going to ask Ms. Brown if she has any opening remarks at 
this time?
    First, I want to ask unanimous consent that the gentlewoman 
from Florida be allowed to participate in today's Subcommittee 
hearing.
    Without objection, so ordered.
    Ms. Brown. Thank you, Madam Chair. I thank the Committee 
for letting me join this hearing today. In this Subcommittee 
this is a very important topic. In my home State of Florida we 
deal with the aftermaths of hurricanes every year and have 
struggled to deal with the unique needs of these vulnerable 
populations.
    I look forward to listening to the comments made by our 
outstanding panelists and to move forward on this very 
important issue as to how to protect our Nation's children, 
elderly citizens, and others with special needs during a major 
disaster. In particular, I want to thank Mark Shriver for his 
leadership on the Children's Commission. Thank you.
    Nearly 2 years ago, I worked to pass the KIDS WISH Act, a 
bill which established a National Commission on Children and 
Disaster, the commission whose representative Mark Shriver is 
here today to report back to us on these most important 
findings and recommendations and what have you done in the 2 
years of study to examine the root causes and challenges as 
they relate to the needs of children during and after all 
hazardous disasters and emergencies.
    During the events and aftermath of Hurricane Katrina, our 
Nation saw the tremendous gap in our emergency management 
response and recovery. We saw this to be especially true with 
regards to children. Indeed, children's needs are unique and 
are not as easy to carry out in an emergency planning for 
adults. Congress as a body, working along with numerous groups 
on this extremely important issue here today, must identify and 
invest in and prepare response and recovery plans for children 
to ensure that what we saw during Hurricane Katrina does not 
ever happen again. I want to repeat. We in Congress have to 
make sure that what happened with Hurricane Katrina never 
happens again in this country.
    Perhaps what is most troubling to me about the current 
state of emergency preparedness system as it relates to our 
children is that the questions to this date remain unanswered. 
For example, will the shelter have diapers, baby food, and 
children's medication? Are there former sex offenders in the 
shelter? How do disaster survivors find their children if they 
are separated during an evacuation?
    Certainly if anyone sits down and seriously thinks about 
all the various needs of children, he or she will quickly 
realize that many of our communities, schools, and States and 
local emergency managers do not have the concrete answers. So 
over the past 2 years this new commission, the Nation's 
Commission on Children and Disasters, has worked to come up 
with solution to these questions. I understand that just last 
week the National Commission on Children and Disasters 
delivered its interim report to President Obama and Congress, 
in which you identify several shortcomings in disaster 
preparation, response, and recovery and provided 
recommendations designed to make children an immediate priority 
to disaster planning.
    So again, I look forward to hearing from the panelists 
today and in particular the recommendations being put forward 
by the Commission so that we can implement as soon as possible. 
I have instructed my staff to draft the Commission 
recommendation into legislation, and I hope that we as a 
Congress are able to turn them into law.
    Thank you again, Madam Chairwoman, for this opportunity to 
participate in this very important discussion, and I yield back 
the balance of my time.
    Ms. Norton. Thank you very much, Representative Brown. Mr. 
Carnahan, do you have any opening remarks?
    Mr. Carnahan. Thank you, Madam Chairman. Just briefly I 
want to thank you and Ranking Member Diaz-Balart for holding 
this important hearing. I thank the witnesses for being here 
and really shining a light on special needs individuals in the 
event of natural disasters, whether that be children, the 
elderly, disabled, or others. This is a very important 
component of our overall preparedness, and I thank you for 
contributing to that.
    We definitely, from looking back, can tell we need to have 
a more holistic approach, a more comprehensive approach to 
incorporating these special needs, and I have particular 
interest, being a representative from the State of Missouri, in 
terms of how our State is hit and particularly our region along 
the Mississippi River. We are the among the most frequent 
States for natural disasters, floods, tornadoes. We are on the 
New Madrid fault line, and we had a bout of ice storms not long 
ago. So we have been hit by many, but some of the same issues 
come up and we look forward to hearing from you and thank you 
for your work.
    Ms. Norton. Thank you, Congressman Carnahan.
    Ms. Edwards, have you any opening remarks?
    Ms. Edwards. I do, Madam Chairwoman. Thank you very much 
and thank you in advance to each of the witnesses for your 
testimony today.
    There is probably not one among us, at least here in the 
Washington area, that doesn't remember being separated from a 
child on 9/11 and the confusion that that caused and the need 
for the kind of coordinated response that you will be 
testifying to today. My son was actually, in fact, on Capitol 
Hill on that day, and I remember as a parent being very 
concerned about how to get to him in the wake of that disaster. 
And of course these disasters that we have to prepare for are 
both natural disasters and they are manmade disasters. We need 
only point to the experiences of the Oklahoma City bombing and 
the vulnerability of children in that disaster and any number 
of natural disasters, whether hurricanes, tornadoes, fires and 
the like. So I appreciate your testimony today.
    Just yesterday I was out in Prince George's County in 
Maryland with first responders looking at the kind of advanced 
technology that they have to identify places, institutions, 
elder care facilities, assisted living facilities, child care 
facilities, schools of greatest vulnerability, and using their 
technology to make sure that they have their eye on the pulse 
when it comes to coordinating response in the event of an 
emergency. And obviously we need that in our own districts, but 
certainly in our States and in our region.
    The tragedy of Hurricane Katrina and these other disasters 
really point to the need to coordinate a response for our most 
vulnerable populations, children, the elderly, disabled, those 
who are in need of immediate medical attention who might be 
separated from their providers.
    So I hope today that we are also able to look forward at a 
set of standards and a training and assistance for child care 
providers and for those who work in assisted living and other 
facilities with these vulnerable populations who often report 
that they are at a loss as to what they might do in an 
emergency situation. And so I look forward to learning from you 
today and to working with my colleagues. And thank you, 
especially to the leadership of Representative Brown, to make 
certain that we consider these vulnerable populations in all of 
our emergency planning.
    And I yield the balance of my time.
    Ms. Norton. Thank you, Ms. Edwards.
    We will hear testimony in the order in which you are 
sitting. First Tim Manning, Deputy Administrator, National 
Preparedness Directorate of FEMA.

   TESTIMONY OF TIM MANNING, DEPUTY ADMINISTRATOR, NATIONAL 
PREPAREDNESS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
  MARK SHRIVER, CHAIRMAN, NATIONAL COMMISSION ON CHILDREN AND 
   DISASTERS; JOHN VAUGHN, CHAIRPERSON, NATIONAL COUNCIL ON 
    DISABILITY; AND TREVOR RIGGEN, SENIOR DIRECTOR, DIRECT 
                  SERVICES, AMERICAN RED CROSS

    Mr. Manning. Chairwoman Norton, Ranking Member Diaz-Balart, 
and other distinguished Members of the Subcommittee, good 
afternoon. It is a privilege to be before you today on behalf 
of FEMA and the Department of Homeland Security, and I am glad 
to join my colleagues from the Red Cross, National Council on 
Disability, and the National Commission on Children and 
Disasters.
    I am also pleased to report to you that FEMA has 
established a Children's Working Group as of August, 2009, to 
serve as the Agency's primary advocate for children. The 
working group is responsible for ensuring that children's needs 
are incorporated into all of our disaster preparedness, 
response and recovery efforts, and coordinates the resources 
necessary to meet the needs of children in times of disaster. 
The group is chaired by a very senior member of the 
Department's leadership team and its members represent all 
sectors of FEMA.
    Specifically, the Children's Working Group is focused on 
the following key areas: child-specific guidance for 
evacuation, sheltering, and relocation; disaster-related needs 
of children with disabilities; tracking and reunification of 
families; coordinated case management support; enhanced 
preparedness for child care centers; enhanced national 
planning, including the incorporation of children into national 
planning scenarios and exercises; incorporation of children's 
needs into grant guidance; improved recovery coordination 
across the Federal Government with State, tribal, and local 
partners in support of children's education, health, and 
housing; consideration as to how the Federal family can help 
ensure child care centers are able to rebuild and restore 
services more quickly following a disaster; and increased 
public awareness efforts to educate families and protect 
children during disasters.
    Historically, the U.S. Has approached disaster planning by 
focusing heavily on the needs of what we may refer to as the 
general population and has not devoted sufficient advanced 
attention to those who may have special needs and thus require 
special specific and immediate attention in a crisis.
    Madam Chairwoman, FEMA is changing this paradigm. We 
believe that children, the elderly, persons with disability, 
and other special needs populations must be fully and 
consistently integrated into preparedness efforts and planning 
efforts at every level of government from the beginning. We 
must avoid putting planning considerations specific to those 
with special needs in a separate box and instead build better 
disaster response and recovery plans that account for the fact 
that those with special needs comprise a significant percentage 
of the population. One of our top goals is to institutionalize 
this approach across our agency and throughout emergency 
management.
    In December of 2007, Congress created the bipartisan 
National Commission on Children and Disasters. The Commission 
has evaluated existing laws, regulations, policies, and 
programs that affect children in disasters, and we have 
received the interim report and look forward to the time report 
in 2010. FEMA has been meeting with the Commission regularly 
and looks forward to working with the Committee and Congress 
and implementing the Commission's recommendations.
    Rather than waiting to move forward, however, FEMA has 
established a Children's Working Group, allowing us to address 
the Commission's recommendations in a proactive manner. For 
example, we have participated in the creation of a shelter 
supply list in concert with the Commission, the Red Cross, and 
other subject matter experts in emergency management and 
pediatric care. This list identifies the basic supplies 
necessary to sustain and support infants and children up to 3 
years of age for a 24-hour period. The Commission recommends 
State and local jurisdictions provide caches of these supplies 
that support the care of children in mass care shelters for a 
minimum of 72 hours.
    FEMA has built a strong network of both public and private 
partner organizations that will help unify and strengthen our 
combined capabilities. For instance, FEMA has worked with the 
National Center for Missing and Exploited Children to establish 
a National Emergency Child Locator Center. FEMA is working hard 
to ensure that its own basic planning addresses special needs 
populations, that we are supporting and assisting our States, 
tribes and localities in this regard. We are reinforcing the 
critical need and personal preparedness to encourage 
individuals and families to adequately prepare themselves for 
disaster events, recognizing that better individual 
preparedness translates into better community preparedness and 
resilience.
    Madam Chair, in conclusion, FEMA and the Department of 
Homeland Security are committed to advancing our Nation's 
preparedness by emphasizing the disaster needs of our Nation's 
most vulnerable citizens. Our efforts must begin with personal 
preparedness, a process of individual thinking and 
consideration of basic steps that each of us and our families 
must take to prevent and prepare for the next disaster.
    In times of crisis government plays a critical role in 
coordinating the response and recovery efforts, especially in 
protecting and providing for the most vulnerable members of our 
population. Members of our communities with special needs 
cannot simply fall to secondary planning considerations but 
must be one of the central focuses of our planning, response, 
and recovery.
    Thank you, Madam Chairwoman and Members of the 
Subcommittee, for allowing me to testify today. I am happy to 
answer any questions that you may have.
    Ms. Norton. Thank you very much, Deputy Administrator 
Manning.
    Before we go to Mr. Shriver I note that our very busy Full 
Committee Chairman has come by this hearing. We very much 
appreciate his being here for whatever time he can devote, and 
I think it is an indication of the importance of this subject 
matter to the Committee and the Subcommittee that the Chairman, 
who I believe has more Subcommittees than any other Committee, 
is here and to offer his own comments, which I will ask him to 
do at this time.
    Mr. Oberstar. Thank you, Madam Chair. I don't want to 
interrupt the flow of testimony but I do want to welcome the 
Commission and especially Mark Shriver, a friend of very, very 
longstanding. Not only Mark but his mother, Eunice, whose 
passing we all mourn but who is remembered in my hometown of 
Chisholm at the center, the Range Center, as it is known, 
center for intellectually and physically challenged people. And 
Madam Chair, Eunice Shriver dedicated that facility--she was 
the inspiration for it to start. She came for its dedication 
and there is a facility in her name, the Eunice Shriver 
Swimming Pool, which is something she suggested for physically 
and intellectually challenged persons, and it is regularly used 
not only by those who are resident at the center, but also 
people of the community. She is known and loved and her memory 
is treasured in Chisholm, Minnesota, and elsewhere around the 
country.
    At an event that we had just recently, I noted frequently I 
would see Sarge and Eunice and Mark at mass in Potomac at Our 
Lady of Mercy, and Eunice would never forget to ask about the 
Range Center, its founder Veda Ponikvar, the publisher of our 
newspaper, and always sent her best regards, and let me tell 
you people were in tears when I told that story. And Mark 
Shriver continues in the spirit of the Shriver-Kennedy family 
of giving of himself to great public causes.
    Thank you. You were the inspiration for this legislation to 
create the Commission, and we welcome your testimony here today 
and thank you for your continuing contribution.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Shriver, you have our condolences. As you know, you 
have the condolences of the Nation on the passing of your 
mother, who contributed so much to the Nation and the world for 
children and people with disabilities.
    We will hear next from the Chairman of the National 
Commission on Children and Disasters, Mr. Shriver.
    Mr. Shriver. Thank you very much, Madam Chair. And 
Congressman Oberstar, thank you very much for your kind 
comments, and I am very glad that you mentioned me going to 
mass; so hopefully that will make my father happy as well. So 
thank you very much.
    Ranking Member Diaz-Balart, thank you for your kind 
comments, Congressman Carnahan, Congresswoman Edwards, and of 
course Congresswoman Brown, thank you for your leadership on 
this issue. You really picked up the ball and made it happen in 
the House under this Committee and we are awfully grateful for 
your support a couple of years ago and making this hearing 
happen today.
    I am Mark Shriver. I am Chair of the National Commission on 
Children and Disasters, and it really is an honor to be up here 
on this panel to discuss this very important issue, Madam 
Chair.
    I think for the last 10 years when you look at it, and for 
so many of us, especially for children, this will be remembered 
as a disaster decade. Our kids have looked at TV and from their 
windows they have seen skyscrapers collapsing, communities 
under water, entire neighborhoods leveled by tornadoes or 
engulfed by fire. And during so many of those events, children 
have been left vulnerable because of a disaster management 
system that treats them as little adults and doesn't account 
for their unique needs.
    You have heard, as you said, Madam Chair, some of the 
statistics that are truly appalling. After Katrina it took up 
to 6 months to reunify the last child with their family. After 
Ike and Gustav shelters didn't have enough supplies, including 
diapers, formula, and cribs. In many cases children are not 
counted separately from the general population in the number of 
shelters, making it difficult to provide supplies and services 
to meet their specific needs. Research conducted just a few 
months ago showed that only seven States meet the basic child 
protection standards for schools and child care facilities 
across this country. And the statistics in New Orleans after 
Katrina and Rita show that there were 15,731 daycare slots at 
266 licensed centers before the storm hit, and a year after 80 
percent of those centers and 75 percent of those slots were 
still gone. And we often wonder why New Orleans has not had the 
economic development that it needs. When you don't have child 
care centers, child care facilities up and running, families 
with young children will not come back to work.
    Children represent 25 percent of the American population. 
There are 74 million kids, 18 and under. We need to put their 
lives and well-being at the front and center. The Federal 
Government and its partners have not made children a higher 
priority than pets in disaster planning and management. I have 
to say, Madam Chair, that is outrageous. Instead, children are 
considered at-risk or special needs population and they are 
grouped in among the elderly, persons with disabilities, the 
medically dependent, persons with limited English proficiency; 
yet they make up 25 percent of the American population. 
Consequently, they are given less attention and resources when 
disaster plans are written and exercised when equipment and 
supplies are purchased. Congresswoman Edwards, you spoke about 
that. But those efforts are not addressed for children.
    So Congress created the National Commission on Children and 
Disasters to look at this cycle of benign neglect. We issued 
our interim report last week. We gave it to President Obama and 
Members of Congress. The interim report identified a couple of 
disaster-- shortcomings in disaster preparedness, response, and 
recovery and provides recommendations to make children an 
immediate priority in disaster planning.
    For the purpose of today's hearing I will focus quickly on 
just a few of the 21 recommendations provided in the interim 
report.
    The first one, Madam Chair, is to incorporate children as 
an immediate priority within the White House and the Federal 
Emergency Management Agency. The White House plays a central 
role in leadership and coordinating role in advising the 
President on matters affecting national security, including 
disaster.
    The Commission has recommended to the President that a 
coordinating council be formed composed of senior White House 
staff and collaborating with the National Security Council, 
Domestic Policy Council, and the National Security staff to 
serve as a focal point for presidential policy development 
specific to children and disasters.
    As legislators, I would ask you to ask those entities 
whether they ever hear about children's needs in planning for 
and responding to disasters, and I will tell you the answer is 
unequivocally no. They don't hear at the higher levels of 
government about children's needs.
    FEMA also plays a central role in coordinating support 
during disaster planning and management for partners, 
communities, and citizens, and Tim spoke a little bit about 
that. Administrator Fugate created a Children's Working Group 
that serves as a centralized platform across the agency, but as 
Tim mentioned, this just started in August of last year and I 
hope that as legislators you will keep pressure on FEMA to make 
sure that that Children's Working Group has access to the 
Administrator and really does focus on children's needs.
    Our second recommendation is to provide a safe and secure 
emergency shelter environment for children, including access to 
age-appropriate services and supplies. The Commission 
facilitated the development, as Tim mentioned, of standards and 
indicators for disaster care for children. This is being 
piloted by the American Red Cross during the 2009 hurricane 
season. Standards and indicators will be evaluated and revised 
as necessary and incorporated in a comprehensive document to 
provide general shelter guidelines and training for shelter 
managers and staff. The Commission also facilitated the 
development of a list of age-appropriate shelter supplies for 
infants and toddlers. Based on this list, Federal, State and 
local disaster supplies can be created or expanded to support 
shelter managers with essential and cost-reimbursable supplies 
like baby formula, diapers, and cribs.
    The third recommendation is that Congress should require 
tougher preparedness requirements for child care providers and 
increase support for child care services in the immediate 
aftermath of and recovery from a disaster. Congress can take 
immediate steps to prioritize child care disaster preparedness, 
response, and recovery: Include a requirement in the 
reauthorization of the Child Care and Development Block Grant 
that requires child care providers to have comprehensive all-
hazard material plans that at a minimum incorporates specific 
capabilities, such as sheltering in place, evacuation, 
relocation, family reunification, and children with special 
needs; require child care provider disaster plans to be 
coordinated with State and local disaster operation plans; 
provide reimbursement from the Stafford Act to support child 
care services to displaced families, establish temporary 
disaster child care and repair and reconstruction of child care 
facilities. We know, Madam Chair, that Administrator Fugate is 
looking at that issue, but I would ask that the Committee work 
to make sure that that decision is expedited and we don't have 
to wait.
    Finally, and I will wrap up, the Federal Government must 
make up its mind to establish a single holistic disaster case 
management program with an emphasis on achieving positive 
outcomes for all children and families. After Katrina and Rita, 
the Federal Government provided at least $290 million for 
disaster case management services. These programs had poor 
outcomes and illuminated the need for greater coordination and 
program evaluation in the provision of disaster case management 
services.
    The Commission recognizes that FEMA has authorized four 
pilot disaster case management programs following Gustav and 
Ike, but it is unacceptable that after a year FEMA and its 
partners still haven't worked out a case management system that 
is comprehensive, effective and deployed in a rapid manner.
    In conclusion, the Commission strongly believes that the 
best way to instill public confidence in the way our Nation 
prepares for, responds to, and recovers from a disaster is to 
make sure the needs of children are an immediate priority. In 
the aftermath of a disaster, effectively providing for the 
safety and well-being of kids will provide greater stability 
and help families and communities recover.
    Thank you, Madam Chair and members of the Subcommittee, for 
this time to talk, and we look forward to working with you on 
legislation that will make a better situation for kids all 
across the country.
    Ms. Norton. Thank you, Mr. Shriver and especially for your 
work in chairing this Commission.
    The next witness is John Vaughn, the Chair of the National 
Council on Disability.
    Mr. Vaughn.
    Mr. Vaughn. Madam Chairwoman, Ranking Member Diaz-Balart, 
and Members of the Subcommittee, on behalf of the National 
Council on Disability, thank you for the opportunity to talk 
about this critical issue here in our country.
    The testimony I will offer today is based on NCD's work in 
emergency preparedness that started back in 2004. Simply put, 
NCD's interest is in a coherent national disaster management 
framework that is inclusive of people with disabilities. When 
we say "coherent" we are envisioning leadership that involves 
effective government coordination and collaboration across 
Federal, State and local levels of government. When we say 
"inclusive," we are talking about a transparent ongoing 
consideration of people with disabilities within the same 
framework as nondisabled people.
    According to the U.S. Census Bureau, approximately 54 
million Americans have disabilities. The incidence of 
disability cuts across all age groups; however, there is a 
greater prevalence of disability as people age. For example, 
middle-aged people have a disability rate of about 22 percent; 
65-to 70- year olds about 44 percent; and over 80 some 75 
percent. By 2030 the population of people 65 and older will 
nearly double, comprising nearly 20 percent of the U.S. 
population. As a consequence, it is likely that disability will 
touch every American's life either personally or through that 
of a loved one. So when we talk about considerations of 
``special needs'' populations in times of disaster, we are 
really talking about a topic that affects or touches every 
American.
    I would like to note two of the major policy gaps we have 
identified through our research. One, there is a lack of 
involvement of people with disabilities in local planning 
throughout all phases of the life cycle of an emergency. 
Secondly, there is a lack of available resources to local 
communities to address the emergency concerns of the local 
community affecting all people and especially those with 
disabilities. Here are a few quick examples that illustrate 
these gaps:
    One, people with disabilities are routinely excluded from 
local drills, preparedness exercises, and other planning 
processes. Two, one study noted that of 30 disaster sites, only 
27 percent of the emergency managers had taken advantage of and 
completed available training on disabilities. Three people with 
disabilities remain largely forgotten during the response phase 
of a disaster. And, four, emergency warnings for people with 
disabilities is woefully inadequate. Most disaster warnings are 
only handled through a conventional communication system which 
is usually inaccessible to people with cognitive hearing and 
vision disabilities.
    From our research it is clear that much work needs to be 
done. In order to build a coherent and inclusive national 
disaster management framework, we would suggest the following: 
That Federal grant requirements and incentives be used to 
ensure the direct involvement of people with disabilities in 
State and local funding proposals to FEMA and to DHS. Under 
such an approach, judging of State and local funding proposals 
would necessitate establishing benchmarks and evaluation 
criteria that demonstrate inclusion and address the needs of 
people with disabilities.
    The challenges faced by people with disabilities during 
emergencies shouldn't be viewed merely as those of a special 
interest group because planning for and accommodating people 
with disabilities often means that we are better equipped to 
serve all people during an emergency. History has taught us 
that failure to plan for inclusion is a plan to fail.
    I thank you for the opportunity to be with you, and I will 
look forward to any questions.
    Ms. Norton. Thank you, Mr. Vaughn.
    The final witness is Trevor Riggen, Senior Director of 
Direct Services, American Red Cross. Mr. Riggen.
    Mr. Riggen. Good afternoon, Chairwoman Norton, Ranking 
Member Diaz-Balart, and distinguished Members of the 
Subcommittee. Thank you for this opportunity to be here today 
and speak to this important issue.
    As mentioned, my name is Trevor Riggen and I lead domestic 
service delivery for the American Red Cross.
    When disaster strikes the American Red Cross is there to 
provide shelter, food, critical resources and support to those 
in need. Our first priority is to ensure that those affected 
have a safe place to stay, food to eat, and the tools they need 
to start their recovery. How our organization and the sector as 
a whole meets these challenges can go a long way toward 
ensuring a more effective and inclusive relief effort to 
benefit those in need.
    Moving forward, as the Ranking Member mentioned, there is a 
lot of work ahead of us to meet the critical challenges and 
concerns laid out in both the interim report by the Commission 
and NCD. To build on that important work, we come today with 
four key recommendations: One, government and local agencies 
plan for a more permanent housing solution that is critical to 
families with children, the elderly and people with 
disabilities that are prioritized for assistance.
    Two, that children are best served if the regular routine 
of their day-to-day life can be restored as quickly as 
possible. Therefore, we recommend that we all work together to 
make sure that schools can open as quickly as possible after a 
disaster.
    Our third recommendation is we support accelerating the 
development of a national recovery framework. This important 
resource will help to coordinate the vast number of agencies 
that are willing to come forward for long-term recovery.
    And, finally, children, the elderly and people with 
disabilities must be considered as distinct populations and not 
part of a larger special needs category. This last 
recommendation I would like to focus on for the rest of my 
time.
    Over time the term "special needs" has become a catch-all 
for any person who may need additional services beyond the, 
quote/unquote, average survivor. As a result, disaster plans 
have become a lengthy list of appendices in an attempt to 
capture the multitude of possibilities and needs created by 
disasters. The assumption that the majority of persons fit in 
the average or one-size-fits-all category has proven to be 
false and plans to meet the needs of this entire community must 
change accordingly.
    In short, special needs is not an adequate description. As 
we all agree, children are not small adults and people with 
disabilities and the elderly have distinct needs that demand 
our attention.
    Over the past 4 years, the Red Cross has made significant 
improvements on our focus of these distinct needs. With the 
help of key partners like NCD, Save the Children, and FEMA, we 
are beginning to both define the needs and build those 
requirements into our general planning. One example of this is 
the proper resourcing of our shelters. Based on the analysis of 
critical barriers, we have strategically stockpiled key 
resources to increase accessibility and provide critical 
durable medical equipment to our clients. This includes items 
such as transferable cots, adaptive equipment for showers and 
toilets, and essential communications equipment.
    The Red Cross is also currently working with FEMA on the 
development of a national capability to resource shelter with 
caregivers. This will assist local government in the 
identification of a cadre of resources to help fill that gap 
and provide for the daily living assistance that many of our 
clients require and deserve.
    Additionally, we have implemented important training to 
enhance workers' awareness and their technical ability for 
assisting those with disabilities and the elderly. Over 5,000 
Red Cross volunteers have been trained so far, and we 
anticipate even further enhancements to this curriculum moving 
forward.
    Most recently we have worked closely with the Commission on 
Children and Disasters to develop some exciting tools to codify 
the standards and best practices for children in shelters. This 
includes the much needed supply list of critical items we need 
when disaster strikes, including diapers, formula, bedding, and 
other basic necessities. We are beginning now to aggressively 
move forward to resource our chapter structure with the 
identified supplies for children and find the appropriate 
balance of both caches of these supplies and locally accessible 
items through partners and vendors.
    A great example of this work is right here in the D.C. 
Area. Our local chapter, the National Capital Region, has 
worked closely with the National Organization on Disabilities 
to ensure that services and shelters are accessible to people 
with disabilities, and this includes a review of all shelters 
for accessibility and identification of specific items that 
would create a barrier to anyone needing access. The chapter 
has also received key government funding to secure additional 
equipment and supplies here locally.
    In conclusion, Madam Chairwoman and distinguished Members, 
thank you for allowing us to testify today. We must all plan to 
serve our entire community after a disaster, and I thank you 
for your interest and concern on this important issue. I look 
forward to any questions you may have.
    Ms. Norton. Thank you, Mr. Riggen, and I want to thank all 
the witnesses for their helpful testimony.
    Now I am going to ask one overriding question of all 
witnesses. Then I am going to go to the Ranking Member and to 
other Members before I ask another set of questions that I 
have.
    When we are concerned about treatment of people who are 
identifiably a part of a group, we tend to focus on them as a 
part of that group. As you all are aware and as your testimony 
makes clear, people don't come in ones and twosies. Some might 
have thought that this report would be called--if it had been 
any other disaster, it would probably have been called 
"families and children." There are very few children in foster 
care, and if they are they are also not supposed to be 
unsupervised. I want to make sure that in fighting the last war 
we are also fighting the next war.
    The same is true, Mr. Vaughn, when it comes to people with 
disabilities. Most of them do not live alone. I was 
particularly impressed with Mr. Vaughn's testimony about the 
elderly because a good number of them live alone and would be 
absolutely helpless if there were a disaster. They live alone. 
They get around their homes well enough. They may even go to 
the store and do some things for themselves. But you tell them 
to be at shelter X, we are in trouble and they are in trouble.
    So I am a little concerned that in focusing on people of a 
specified group, whether those people are children or people 
with disabilities, we may lose sight of the context in which--
where they live.
    I will be very personal with you. I have a child who is now 
a woman with Down's Syndrome. She is 39 years old and I am 
pleased and proud that she lives with me, and so far as I can 
make possible, always will live with me. I believe that 
Katherine, if there were a terrible hurricane in Washington, 
Katherine would not be traumatized if she were separated from 
me. And guess what? I could be here. She could be at the lovely 
institute for drama and such that she goes to every day. So the 
chances are, at least given the hours that I have and the hours 
that many parents have, I wouldn't even be there. The fact is 
that the 6-1/2 months it took us to relocate some children with 
their parents went less to children than to how we treated 
families. Moreover, our focus on children comes because when we 
found so many children disconnected from the living unit, we 
were not prepared to deal with them as disconnected children. 
We didn't have the supplies. We didn't have the personnel. We 
didn't have the focus. So you would help me in looking at these 
groups which we see as disparate. We think children and 
families may live one way and we want to focus on children with 
families who have to be handled in one way. We see that there 
will be a special focus for people who are disabled and 
elderly. But when you consider the disability coordinator, the 
recommendations so far of the Commission and of others, I would 
like to know whether your recommendations conceive of them in 
the units where they are located or should be located were it 
not for the disaster and what your recommendations have--what 
recommendations you have to us about dealing with, first, 
family, whether it is natural family or other reunifications, 
as a function of whatever services we think we are supposed to 
provide.
    So beginning with you, Mr. Manning, I would like all four 
of you to address the notion of the units in which these people 
that we are discussing today will either already be a part of 
or should be a part of if we are to provide them with the 
services they need after a disaster. Then I will go down the 
line.
    Mr. Manning. Thank you, Madam Chair. I think that is of 
course the most crucial part of our planning and our failure to 
plan in the past, that we have built a planning system for 
disaster preparedness, for emergency preparedness that focuses 
on the general population, and then when we recognize or we 
communicate with our partners that we have at the table today 
that bring to our attention that we have forgotten about a 
segment of our population, we tend to respond by the inclusion 
of an additional planning guidance or the recommendation that 
we write an additional plan to support and provide for those 
members of the community.
    What we have recognized is that what we need is a better 
way to plan. We need a better system from the ground up so that 
we incorporate the needs of all the members of a community, all 
the members of our society, not a particular disability group 
or children as an annex or an afterthought or an add-on to our 
plans and our preparedness activities but one that cross cuts 
from the beginning.
    Administrator Fugate uses the example of having been 
offered the opportunity to buy a certain number of cots for 
sheltering and then a certain number of ADA compliant cots. And 
he asks the question why am I buying two sets of cots? Why 
don't we just buy ADA cots and they are available for use by 
everyone? It is that kind of thinking that needs to permeate 
what we do. It is a way of doing business, and it is one that 
we are undertaking with great speed and due diligence to bring 
across the entire mission set of FEMA and emergency management.
    Ms. Norton. Thank you, Mr. Manning. The greatest service 
FEMA could have provided in Katrina was not diapers. A lot of 
us know how to make do on that if you are going to have some to 
us in a few days. The greatest service they could have provided 
was advanced word to families about how to keep their children 
with them no matter what, and then lots of things take care of 
themselves once you are with your mama or your provider.
    Mr. Shriver.
    Mr. Shriver. Madam Chair, I think we need to do a better 
job addressing the issue you have talked about. I mentioned the 
child care issue and the child facilities that weren't rebuilt 
in New Orleans and part of the reason that city is still 
struggling. So I don't think we have looked comprehensively at 
the needs of families, if that is what your question is getting 
at. So we rebuild or put dollars through the Stafford Act for 
facilities, for levees, and for schools. But if you have a 
little kid--we have a 4-year-old. If you have a little kid who 
is going to school in second grade and there is no place to put 
your 4-year-old, you are not going to move back to New Orleans 
or you are not going to move to D.C. So we don't, I don't 
think, look comprehensively at the needs of families and 
children within those families.
    Child care facilities here in Washington D.C., if a dirty 
bomb were to drop and you were evacuated and your daughter were 
to go to a different place, the facility that she is at or the 
place that she works at, I don't know if they are clear on 
where they are going to evacuate your child where your child 
is--and how your child is going to be reunified with you. If 
your phones are jammed, is there a backup plan for your 
daughter to reach out to another family member?
    So we don't set minimum requirements for child care 
facilities across this country or other facilities. Whether it 
is a juvenile detention facility or the place where your 
daughter is, I would be willing to bet you right now does not 
have a comprehensive evacuation plan in place because the city, 
this city, does not require it and most States in this country 
don't require it. So they are not looking at kids' needs within 
the family structure and when it is a child care facility.
    I have great respect----
    Ms. Norton. Is that true, Mr. Manning, that most cities 
don't have an evacuation plan for special needs facilities?
    Mr. Manning. Madam Chair, that is a local requirement and 
that is most likely true that the vast majority do not.
    Mr. Shriver. I am talking for your daughter, but also 
through child care shelters--child care facilities across this 
country. It is not uniform in Washington, D.C. We are actually 
working with Councilman Evans right now to try to get 
legislation to make those basic standards--or requirements part 
of the law. And it is a no-cost or low-cost alternative. So we 
are not looking at children within the family unit because we 
don't really focus in on child care facilities which deal with 
hundreds of thousands of kids in this city and millions of kids 
across this country.
    I think the present leadership of FEMA has done a great job 
looking at children's needs and they have only been in office 
for 4 months. But unfortunately when we respond--when there was 
a response to American Samoa, when FEMA sent a team out there, 
they did not take within the Department of Health and Human 
Services the Administration for Children and Families which 
focus in on children's needs. They took ASPR, which focuses in 
on the health needs but is not focused in on the needs of 
children.
    You know, we can go back and forth about why that didn't 
happen. I have great admiration for the Administrator, but I 
think that should have been part of the plan. We should be 
looking at not just the health needs of people impacted in 
American Samoa but have experts on the ground that understand 
the needs of children, the mental health needs of children.
    If your daughter gets separated from you for hours, if not 
days, that is going to cause some real issues for you and your 
daughter. Imagine if your kid is 2 years old and separated and 
the mental issues they are going to have to deal with, or a 5 
or 6-year-old if their home is washed away, if they don't have 
the resources there to deal with that.
    So I think the answer is we have a lot of work to do in 
making sure that children are, in particular in the case in 
which I am talking, seen as a unit within the family and within 
the larger society.
    Ms. Norton. Thank you, Mr. Shriver. Your answer leads me, 
before I go on to Mr. Vaughn, to ask Mr. Manning whether or not 
there is rulemaking going on to clarify that child care centers 
can receive assistance in the event of disaster or, for that 
matter, that the kinds of places where kids hang out, like boys 
and girls clubs or even our own Head Start centers, would 
qualify to receive assistance in the wake of a disaster?
    Mr. Manning. Madam Chairwoman, yes. Currently facilities 
that meet those descriptions that are private nonprofits or 
nongovernmental organizations are eligible for disaster 
assistance, and we are exploring how we may be able to extend 
assistance beyond those facilities. Where you have for-profit 
facilities, they are excluded, and we are looking at that 
currently, yes, ma'am.
    Ms. Norton. Thank you, Mr. Manning. It is very important 
that we focus where the children are, in families or in these 
other facilities.
    Now, Mr. Vaughn, I was impressed by what you said in regard 
to the question I have asked because you mentioned the elderly 
and people with disabilities. I mean we have people with very 
diverse disabilities. Somebody who is completely blind who goes 
to work every day is very different from someone who has to 
stay at home because he is so hard of hearing that he does not 
and has nobody to go out with him or the elderly person I 
mentioned earlier.
    Ms. Norton. Test the context in which disabled people live, 
are we able to deal with them in context, in the groups where 
they live or as individuals where they may live alone, Mr. 
Vaughn?
    Mr. Vaughn. Yes. In my written testimony to the Committee, 
we talk about the holistic planning that needs to occur at the 
national, local and State level, whether it be making sure at 
the local level that there is temporary housing to deal with 
the needs of families who get displaced or whatever. I think it 
gets back on a lot of these to me--and I think in our 
recommendation--that we need to get the availability of grants 
to get that kind of planning done. I expect that--I serve in, 
down in Florida where I live, on the local disability 
committee. One issue just came up the other day. The issues 
keep coming up. This had to do with the rising problem of 
children with autism and the impact on shelters.
    So I think everything gets to be very holistic, and we 
really believe that there has just got to be more effort, 
because I think what we have heard from all four of us, that a 
lot of it is not getting done in the local communities. Living 
in Florida like I do, on the west coast, we had four hurricanes 
4 years ago in 1 year. So you had better be looking after your 
own needs. But it has got to be a holistic approach to the 
functional needs of everybody. As a blind person, I am 
fortunate that my wife is sighted, but in a hurricane, I could 
become where I am having to fend for myself.
    Ms. Norton. Thank you, Mr. Vaughn. Mr. Riggen, the Red 
Cross, of course, has for decades had to deal with families, 
children. This is nothing new for you. Would you tell us about 
your experience and what you think--how people are handling 
their context?
    Mr. Riggen. I want to thank the Chairwoman for this 
question because I think this really gets to the crux of the 
issue we are talking about today. The family structure in a 
shelter is very important, and I will start with the shelters. 
Part of the recommendations that we worked with the Commission 
on and what we are starting to develop now is to ensure that 
families are held together in shelters very closely. We are 
making sure the children are both protected and the family 
structure remains resilient after a disaster which is extremely 
important.
    Ms. Norton. Did you find in Katrina that sometimes the 
parents, because there were so many people, you know, were made 
to sleep on cots here and the children on cots someplace else 
in the children's section or something of that kind?
    Mr. Riggen. It is an extreme case, especially in large 
disasters or large shelters. It is extremely challenging 
throughout a day when the resources are coming into the 
shelter. Where the parents have to leave the shelter to get 
resources and services, the children do get cordoned off 
sometimes and that is what we are trying to avoid. We want to 
get the family structure back. And worst-case scenarios, we 
don't want shelters to split up based on need. We don't want 
one part of the family to go to a special needs shelter and one 
part in a general population shelter. We want the family to 
stay intact. To have each type of shelter be able to absorb 
that population is extremely critical.
    The other piece on remaining in the family is the pictures 
we have over here to the right from American Samoa, and this is 
our partnership with Save the Children on the ground there. 
There is some great work on working with children. What you 
don't see is the casework that happens in the villages. This is 
because we have to go to the family, and every family is 
different. Disabilities can take all forms. They can be 
cognitive, mental, physical. The issues of the elderly in that 
family could be different. The family size can vary. The 
individual casework, sending a worker, a volunteer to sit down 
with a family and having them listen to the story, what are 
your needs, how can we best meet those needs? If we can keep a 
family in their home, that sends them forward on a recovery 
much quicker than having them have to move to a shelter weeks 
later.
    So the casework piece is extremely important, and the 
transition of that casework to long-term case management is 
also extremely critical and we look forward to moving forward 
on that.
    Ms. Norton. That is really interesting. The notion of stay 
in place if you can is a really interesting notion.
    Mr. Diaz-Balart. 
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. 
Before I start, I would also be remiss if I did not recognize 
also the great job that my colleague from Florida, 
Representative Brown, has worked on these issues. She is a 
tireless advocate for Florida, for her district but also for 
children. I think I would be remiss if I didn't mention that. 
Also, I thought Mr. Vaughn made a very interesting point and I 
apologize because I am probably going to butcher it. So I am 
going to paraphrase it. Mr. Vaughn, you basically stated that 
when you plan and you do a better job with people with 
disabilities, you help everybody because everybody benefits, 
everybody does well, everybody is planned for better.
    I have a couple questions for Mr. Manning. The integrated 
planning system has been pretty widely criticized by this 
Committee, as you know, and the emergency management community 
as well as being too complicated, labor-intensive, just 
difficult to implement at the State and local levels. Is that 
going to be replaced? Are you looking at that scenario, your 
scenario-based system with an all hazards type approach as 
opposed to what we have now? Any idea what the status is on 
that?
    Mr. Manning. The integrated planning system is under 
review. It is being reviewed. The review is being led by the 
national security staff and the disaster readiness group, of 
which FEMA and the Department of Homeland Security hold a 
number of chairs. The emergency management community has had a 
tradition of doing all hazards based planning where we do a 
base plus annex planning. We do a base plan for those things 
that cross-cut all types of disasters and specific annexes to 
deal with the incident-specific issues. That is one of the more 
prominent options that are back on the table for our future 
planning system. There isn't a firm timeline for the completion 
of that, but it is very actively being looked at.
    Mr. Diaz-Balart. Thank you. I mentioned in my opening 
statement that the post-Katrina Act explicitly requires FEMA to 
coordinate with the National Council on Disabilities on all 
aspects of the national preparedness system. How will you 
ensure that FEMA implements this obviously very important 
requirement and actively coordinates with the NCD and the 
planning and preparation for disasters, which I think we have 
heard is not quite there yet.
    Mr. Manning. Yes, sir. We do have a very close working 
relationship with the National Council on Disabilities.
    Ms. Norton. Speak up, Mr. Manning, please.
    Mr. Manning. I am sorry. I will move closer. As we come 
into the review of the national response framework, which we 
will be beginning shortly, there will be a disability community 
as well as all of the--people representing all factions of our 
society and levels of government will be integrally involved in 
how we conduct that review. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Diaz-Balart. I would like to ask 
Chairman Oberstar if he has any questions at this time.
    Mr. Oberstar. No questions, Madam Chair. I thought you put 
your finger on the issue very well right at the outset of the 
questioning. I also want to join with Mr. Diaz-Balart for 
complimenting our colleague, Ms. Brown, for being such an 
advocate on behalf of children and for the initiative Mr. 
Shriver put forth. Mr. Cao as well has spoken to me many times 
about the need to address these issues from his own experience 
in New Orleans. But I think, Madam Chair, that, you know, we 
have the FEMA authorization bill draft in Committee. We have 
had--you have had numerous hearings on the subject, a great 
deal of discussion about it, and I think we ought to just put 
some language rather than all these things that the Commission 
has recommended can be done, if you look at the forward, 
disaster management recovery, mental health, child physical 
health and trauma and so on all, of those can be done by 
executive order.
    Do you now how long it takes for executive orders to make 
their way through? Do you know how long it takes to go through 
the Federal Register process and the mounds of documentation 
that they take and the months of publication of advanced notice 
of proposed, notice of proposed rulemaking, proposed 
rulemaking, final rulemaking. That could be years. I think we 
ought to just put some directive language in our bill in 
consultation with the minority members, the Republican Members 
of the Committee and take these well-thought-out 
recommendations in policy statement and direct FEMA to move on 
them.
    I don't think we can wait. I don't think the children can 
wait. I don't think you, as you rightly pointed out, older 
persons, persons older than children, persons with other 
disabilities. You touched my heart so deeply with the story 
about your daughter. The center that I talked about, the Range 
Center, has numerous Down syndrome children who are being 
wonderfully cared for. We don't get hurricanes in northern 
Minnesota, but we do get blizzards and whiteouts.
    And if one of those should strike and people should be 
locked in there, as happens, we have a similar situation only 
it will be a hell of a lot colder than during a hurricane. So 
we have an opportunity here, and I think we ought to just move 
ahead with this and do just do it by legislation.
    Ms. Norton. The Chairman's impatience is well placed, it 
seems to me, in light of the Committee's report and the 
testimony we have heard today. This Subcommittee will work 
quickly, Mr. Chairman, in light of what you have said. Mr. Cao, 
have you any questions for the panel?
    Mr. Cao. I do, Madam Chair. Thank you very much. First of 
all, on behalf of my constituents in Orleans and Jefferson 
parishes, I would like to extend my appreciation of your work 
and the Ranking Member's work in holding this very important 
hearing. And I would like to thank again your sustained 
attention as demonstrated by this series of hearings related to 
disaster response and recovery, especially what happened in my 
district during Hurricane Katrina.
    Madam Chair, you are absolutely right. One of the greatest 
tragedies of Hurricane Katrina was the needless suffering of 
children, the disabled and those with special needs. I have 
heard of terrible stories from my constituents about their 
experiences during Hurricane Katrina, and let me just tell you 
a couple here. An elderly woman who was in my home area of New 
Orleans was unable to evacuate. It wasn't until days later that 
she was discovered dead in her home.
    In another instance, emergency response officials rescued 
an elderly man and transported him to a make-shift evacuation 
center where he died while waiting for medical professionals to 
treat his diabetes. Those are just a couple of stories that 
basically explain some of the many problems that we had in 
regards to preparation, and eventually also in the recovery 
process. My question is to Mr. Manning. One of the biggest 
problems that I have seen so far deals with the questions of 
recovery, especially in the area of helping those who are 
mentally ill, those who are disabled, and as some of the 
information I have read today that right after Katrina, 1,100 
schools were closed, and they were not open sufficiently quick 
enough in order to address the needs of children.
    What plans does FEMA have in place in regards to recovery 
to quickly allow children to get back in schools, to allow 
medical facilities to help treat the disabled, the mentally 
ill, those who are in tremendous need?
    Mr. Manning. Thank you, Mr. Cao. One of the things we have 
learned through our past disasters is where we have shortfalls 
in our plans, and getting schools reopened to get a sense of 
normalcy in the community, get the students back where they can 
learn, where they have their peer support groups is absolutely 
critical. We were--while certainly nowhere near the magnitude 
fortunately of what your constituents went through in 
Louisiana--within a week in American Samoa, we were able to get 
all but one or two of the schools reopened, and we were able to 
get arrangements made for the students of those schools to 
attend others in the short term. We have made the restoration 
of essential services, including schools, one of the highest 
priorities in our stabilization of an incident as we transition 
from lifesaving to life-sustaining operations. We will continue 
to examine closely how we do, how well we do, how well our 
partnership with the local and State governments and the 
nonprofit and nongovernmental organizations as we come together 
as a team to respond to disasters where we can be better and 
modify our plans, institute additional training and ensure that 
the needs of our most vulnerable citizens are met as quickly as 
possible.
    Mr. Cao. Thank you. Mr. Shriver, in your testimony, you 
stated the need for adequate child care facilities after a 
disaster. Actually, I experienced that difficulty myself. I 
remember driving all over the district, trying to find a place 
where I could have people care for my two daughters. It was a 
very difficult and very frustrating experience. Can you provide 
or at least enlighten us with respect to how the lack of 
adequate child care facilities impede the recovery process of 
New Orleans?
    Mr. Shriver. Well, I think the statistics that were in the 
testimony speak to the dramatic impact and reduction of child 
care slots and child care facilities in New Orleans. I know 
that that is an ongoing issue, and I know it was an issue in 
Mississippi as well. I think the real question is a 
clarification of roles in what services are to be delivered for 
a recovery and who is supposed to deliver those. So if it is 
that child care facilities need to be rebuilt, is that FEMA's 
responsibility, mental health services and case management 
services I think are all very critical components to a recovery 
not only in Louisiana but across the country. How many dollars 
should be put into those different tranches and who is 
responsible for implementing those?
    So you see not only in the Gulf Coast, but you see last 
year as well after Ike and Gustav that the issue of case 
management. Who is responsible for case management, what does 
case management mean? Is that FEMA's responsibility and is 
finding a shelter, housing constitute successful closure of a 
case? Or do you need mental health services, do you need health 
care services, do you need child care services? I think that 
that is something that you in your oversight responsibilities 
as elected officials should really work hard with FEMA to 
clarify. I think to defend FEMA, they have not had great 
clarity on that in the past. I think Administrator Fugate has 
done a good job, trying to get children's needs as part of the 
overall plan as compared to an addendum to a plan but I think 
that those issues of case management, is FEMA, do you want them 
doing case management work?
    Mr. Cao. Mr. Manning, can you provide a response to Mr. 
Shriver?
    Mr. Manning. Certainly. Thank you. We are actively working 
with Health and Human Services to establish an interagency 
agreement that is going to resolve the issue of case 
management. By the end of the year, we expect that. Obviously 
that is not fast enough because disasters could happen at any 
moment. We need to be able to do that this afternoon. We have 
worked with HHS to establish some prescriptive mission 
assignments. We can do that today. We can deploy this quickly 
today. Mr. Shriver is correct in that we have not always been 
timely in that regard.
    In our dealing with HHS, we may focus in on the emergency 
medical piece to the exclusion of the other parts of the 
Department and the other needs of the community. We have 
recognized that. We have taken steps to account for that, and 
we have the ability to send case management and will if 
necessary send it in part of the immediate response package.
    Mr. Cao. Now in regards to child care facilities, as Mr. 
Shriver was pointing to, would it be the responsibility of FEMA 
to make sure that those facilities could be open? How do you 
come up with a plan, for example, to work out some of the 
issues in dealing with, for example, if the facility was 
insured under some private insurance plan? Have those details 
been worked out?
    Mr. Manning. The responsibility for the restoration for the 
reopening of child care facilities is one that is shared by the 
community. FEMA's role is one of supporting the Governors in 
support of local communities in response to a disaster. We can 
certainly and do provide planning guidance to communities to be 
able to expedite that. Through the delivery of services, 
disaster assistance can expedite that as well. Where a facility 
won't have the means to re-establish themselves, we can assist 
in that as well. We do consider child care centers when 
operated by private nonprofits to be performing an essential 
government service, and we will work with them, and then going 
forward, look at rulemaking to clarify that as well.
    Mr. Cao. Thank you, Madam Chair. Those are all the 
questions I have.
    Ms. Norton. Thank you, Mr. Cao. Mr. Cao is really pointing 
out the difference between--and I think Mr. Shriver's comments 
go to this too--if they are already in a child care facility, 
then we need to make sure the child care facility knows what to 
do. But the need for child care facilities, if a family is 
fortunate enough to go back to work and there is no standing 
child care facility, whether it is the one she used before or 
not, then of course case management has fallen very short. Ms. 
Brown.
    Ms. Brown. Thank you, Madam Chair. Let me just say that I 
think Katrina will go down in one of the worst disasters in the 
history of the United States. Not that it was one of the worst 
disasters, it was one of the worst responses. And of course, 
you saw a government that was incompetent. Thousands of people 
got killed. This should not have happened, and what lessons 
have we learned? But one of the things that was encouraging was 
how the communities came together and worked together. My 
community came together. Communities came together all over the 
country, and we sent 10 tractor trailers full of--you know, we 
called and said, What do you need? We need diapers, we need 
water. Whatever they needed we put it on those tractor trailers 
and we sent it to New Orleans and we had the State reps there 
that unloaded them and made sure it got out to the people.
    So there is a--you know the American people looked at it, 
and this came from all over the country. They said, you know 
what can we do? This could be us. So we have got to make sure. 
I have made it my business to go there at least twice a year 
and I am getting ready to go there again the first of November. 
I tell them, I am their Member at large. I want to come and see 
how we are working and what we are doing.
    So Mr. Shriver, can you give me your report? I know it is 
lengthy. But what recommendations, what should I be looking for 
when I go the first of November?
    Mr. Shriver. Specific to New Orleans or in general?
    Ms. Brown. Well, you know in the broader picture. I come 
from Florida so we have it constantly. But I can tell you, it 
seems that maybe we are a little bit more prepared, maybe the 
government worked better with us as partners because it seemed 
that you know it wasn't a one team one fight there in that 
whole region.
    Mr. Shriver. I think that clearly the relationship that 
FEMA has with its partners is much, much better today than it 
ever has been. And I think we got a real sense not only the 
National Commission, but my other job working for Save the 
Children, which does respond to disasters have a much better 
partnership with FEMA than we have ever had. The door is open. 
The partnerships are much stronger than it ever has been and 
there is real change in the last 4 months since Administrator 
Fugate and Mr. Manning and their team came onboard, and it is 
also true with the Red Cross. There are much better partnership 
opportunities and much better responses than there ever were 
clearly under Katrina or has been in the past.
    I think you can continue to ask about the partnership 
opportunities and put pressure on all of us to work better 
together. I think you should ask in New Orleans about the case 
management issues that are happening in the Gulf Coast. I think 
you should ask about the case management response in Texas as a 
result of last year's hurricanes. Are services being provided 
to families and kids that need those services? Was that done in 
a timely fashion? Mr. Manning talked about coming to grips with 
a comprehensive case management system set up by the end of 
this year. I think you should ask about that. I mean, I think 
that--you know after Ike and Gustav went through last year--and 
this was before the present administration was in there--there 
were months and months of delay for case management services 
being delivered. If that happened to my family, if that 
happened to your family, I think there would be a lot of hell 
to be paid.
    The bottom line is that unfortunately for too many families 
that are impacted by disasters, they are poor, in many cases 
minority, and they don't have a mouthpiece to get their message 
out. So I think you could look and ask those questions about 
not only the case management after Katrina, which is ongoing, 
and the mental health needs of the kids that are still in the 
Gulf Coast is so profound, it is unbelievable. I will send you, 
Congresswoman, some of the statistics that are out there, and 
the lack of resources for mental health services for those 
kids. I think those are all questions you should be asking the 
Federal Government, if they are going to provide those 
services.
    Ms. Brown. I do know that as far as for the veterans, I 
pushed from my other Committee on Veterans Affairs and we are 
going to rebuild the VA hospital right there in the center. So 
it is going to be kind of a medical center that will provide 
the services because I know that they have had no hospital. 
Their complete hospital was wiped out and the veterans facility 
was wiped out. But it will be the center and working with a 
group coordinating for the community. So there is progress, but 
we need to make sure that we continue the progress.
    Mr. Shriver. Well, I agree with you, Congresswoman. I think 
as Mr. Diaz-Balart said in the beginning of his comments and 
throughout his comments, that there is still a lot of work that 
still needs to be done----
    Ms. Brown. No question.
    Mr. Shriver. --I think we should be asking the 
administration one of the lead recommendations that I spoke 
about and that is in the report is having folks that understand 
children's needs be part of the Domestic Policy Council and the 
National Security Council, and we have talked to those folks 
and they will tell you the needs of kids do not come to the 
forefront. I have talked to Members of Congress who have told 
me that after Katrina, there was a lot of focus on housing and 
on levees and rebuilding those and the infrastructure, which is 
all critical but we forget about human service needs and we 
forget about poor kids, and we forget about the mental health, 
the health services of those kids and we move on to the next 
disaster. It has almost been 5 years now and I think we need to 
ask this administration to really step in and address some of 
the glaring inadequacies in the planning for, responding to and 
recovery of disasters generally but in particular the one that 
is still going on in New Orleans, which is still a disaster.
    Ms. Brown. As we sit here today and speak--I just returned 
from Haiti--but there is a tent city right there in New Orleans 
where families, children, are living under the bridge or 
something. So there is a lot of work that we realize we still 
have to do to support the families that are in those 
communities.
    Madam Chairwoman, I want to thank you again for holding 
this hearing. I am looking forward to thoroughly reviewing the 
report from the Commission. Thank you.
    Ms. Norton. Thank you, Ms. Brown, for your leadership.
    Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman. I just have a 
couple of questions. When you think about the population, 25 
percent children 18 and under, 20 percent of our population 
identified with disabilities at a minimum, about 20 percent 
elder population, when you start adding those numbers--although 
there is some overlap--it is our population. So I really do 
share the view, I think, expressed by each of you in different 
ways that when it comes to disaster management, we do need to 
look holistically because we are talking about the population, 
not a special population, not a segregated population but 
really all of the population that requires a certain set of 
needs.
    My question goes to a couple of things. One, I recall 
during Katrina--because I did much more work around issues of 
domestic violence--that many of our national domestic violence 
organizations were able to reach out to the Administration for 
Children and Families not through FEMA to provide relief and 
relocation services for mostly a population of women and 
children who had experienced domestic violence. One of the 
things that was happening in New Orleans is that those women 
and children who had to be evacuated from shelters were, in 
fact, moved to a place exactly where their abuser was. And when 
you get to issues around case management, there is a really 
clear need for case management because if you had a case 
manager who is looking holistically at the family and its 
needs, that kind of placement actually would not have happened. 
There was some additional work done through the Administration 
for Children and Families. It really was not FEMA-related when 
it came to relocation of some of that population.
    So I would just draw your attention to it. I also am really 
concerned on this issue of standards. I wonder if each of you 
might speak to that. The kind of standards for preparedness 
that might be necessary for child care providers but also long-
term care providers, adult day care facilities. All of these 
sort of different kind--you know, day care arrangements for 
adults with special intellectual and physical challenges. Many 
of these kinds of institutions are already regulated by the 
State. So how difficult would it be to encourage our States or 
facilitate our States' ability to provide both tougher 
standards, but also the training and tools needed to 
participate effectively in disaster management efforts?
    So I wonder if you would speak to that. Then in some 
instances, I know in the State of Maryland, most child care is 
actually not provided in these more regulated child care 
facilities. It is home-based child care, even multiple children 
in home-based child care. So I would be concerned if we were 
only focused on ensuring the needs in that environment when we 
are missing the needs of a much bigger population for children. 
Mr. Manning and Mr. Shriver also.
    Mr. Manning. Thank you, Congresswoman Edwards. Those are 
very important points. If I may, I will start with the second 
first. The same difficulties that we have in reaching 
individuals and trying to increase individual and family 
preparedness, community preparedness we would face, we do face 
in reaching the child care center that is based in the home, 
that is maybe a nanny share or simply the willingness of 
neighbors to help neighbors and bring their children into the 
home. There is not regulation, there is not grant guidance that 
we, at FEMA, can issue that will address that. What we can do 
is to continue to try to push on our individual and family 
preparedness initiatives in our partnerships with the team at 
State and local governments and private nonprofits throughout 
the community, throughout the country to try to reach those. At 
the same time, as we work with the established and regulated 
child care facilities, again, as you mention, they are 
regulated largely by State governments and in some cases 
municipal codes. It is not something that barring Federal 
legislation we can reach from FEMA.
    We have often success in implementing those types of 
programs through grant guidance but again, as there aren't 
grant programs specifically designed for child care centers, 
that is a population that is missed. We plan to, and are 
currently incorporating the recommendations from the Commission 
and our partners that are going to our State and local 
partners, part of which will encourage the incorporation, as we 
have discussed, of the entire society into our planning. And 
this can be done as well. But we have seen through the 
tragedies of school violence over the last number of years, 
Columbine and Virginia Tech and others, that there has been a 
response by the secondary and higher education, high school 
facilities to do this planning, to do safety planning. They are 
required to. There are grants for it and they do it. The 
encouragement of child care facilities to do that same type of 
planning is a natural extension of that same school safety 
planning initiatives that we have had for our elementary, 
secondary and higher education facilities. I believe that we 
would have success encouraging that message as well.
    Mr. Shriver. In the State of Maryland, Congresswoman, in 
the last legislative session there was legislation introduced 
by Senator Frosh that was passed that set these basic 
requirements for the State of Maryland. They were supported by 
the Department of Human Resources and the Department of 
Education as low-cost or no-cost alternatives. These basic 
requirements--this is for child care facilities--also reach 
into home-based care as well because, as you know, they are 
regulated by the State.
    They have less, obviously, kids in the home, but you can 
have those standards apply across the board. They have done it, 
I believe, in Maryland for senior centers as well. So they are 
low-cost or no-cost alternatives. You can tie Federal dollars, 
as I mentioned in my opening statements, to the child care 
development block grant and the entity that is getting CCDBG 
money to maintaining, or reaching Federal standards.
    Also, I would say this is not necessarily FEMA's 
responsibility. The Administration for Children and Families 
and their child care bureau, you ought to have conversations 
with them. FEMA is part of the team, but again, it gets back to 
the clarification of roles. I don't think they need to be 
driving that issue. But should ACF be requiring that? Should 
they be setting the standards? Should they be finding what 
those standards are and sending those across the country? The 
answer, I think, is yes. There was push-back because I have 
testified on behalf of the bill in Maryland, and there was some 
concern about cost. The bottom line on the fiscal note said 
there was no cost. Other States are doing this now, including 
Mississippi and Alabama, and they deal with both home-based and 
larger centers. That is why I specifically said child care 
facilities because it includes both the home-based as well as 
the centers that serve more kids.
    So I think you ought to bring in the Administration for 
Children and Families and ask them what they are going to do on 
this issue as well and whether they have standards that should 
be implemented across the country and push them to do that.
    Ms. Norton. Thank you, Ms. Edwards. This is a question 
certainly for Mr. Shriver, who mentioned in his testimony but 
clearly as well for Mr. Manning, and Mr. Riggen and Mr. Vaughn, 
as well may have had some relevant experience here, to say the 
least. The nemesis, perhaps, of this Committee has been case 
management. Indeed, one of my questions to you, Mr. Manning, is 
how many people are still listed as in case management from 
Katrina on the gulf coast? This has been a very troublesome 
area for this Committee, which has had a number of hearings on 
the matter.
    Mr. Manning. Madam Chairwoman, I apologize. I don't have 
that information today, but I will provide it to you.
    Ms. Norton. 30 days, Mr. Manning, if you could get us that 
information.
    Mr. Manning. Sure.
    Ms. Norton. You mentioned, Mr. Shriver, the notion of case 
management, the need for what you call holistic case 
management. We know from the hearings we have had that these 
families, already dislocated and displaced, have been compelled 
to go here and there for services, housing here, health care 
there, no transportation to get there or very scattered 
transportation. Yet, that is logistically very difficult, as we 
have seen, by the failure of both the States and FEMA in this 
regard. I wonder if you would indicate what you mean by 
holistic case management? What would it consist of? Who would 
be involved? Would it only be the government? Would it be 
nonprofits? How would you put together a case management 
system? Then Mr. Manning, how do you evaluate these contractors 
who are parts of your case management system who often are for 
profit contractors, Mr. Shriver?
    Mr. Shriver. Thank you very much, Madam Chair. As you know, 
FEMA has entered into relationships with, I believe, four 
different approaches to case management. Within the interim 
report, which I am happy to send to you, we spell out what 
holistic comprehensive case management is. It includes health, 
mental health, nutrition, education, human service needs of 
kids and families. It does involve voluntary agencies that 
would provide case management services. You see different 
examples of it as a result of the hurricanes that have gone 
through the gulf coast over the last 4.5 years. I don't want to 
go through the----
    Ms. Norton. Do you mean that these would be working 
together in a group--I mean, these services all exist in some 
form or fashion if people would only get to them.
    Mr. Shriver. That is correct. I think, again, what I would 
say is I think you in your oversight capacity ought to be 
asking FEMA and the Federal family or the Federal Government 
agencies that are working on case management what approach they 
are going to take that is comprehensive in nature and when are 
they going to make that decision by because I think it is 
just----
    Ms. Norton. Let me go to Mr. Manning on that. You correctly 
point out the government agency with responsibility here. Now, 
Mr. Manning, for the life of me we could never understand why 
FEMA didn't say, okay, X, Y, Z and A, B and C, you are hereby 
constituting the case management group for the parish of X. 
Guess what, you are all in the same group, you are all under 
the same tent. You decide how and where to go. You go together. 
What keeps that from happening, Mr. Manning? What are you doing 
to allow that to happen so that we don't have scattered 
services? Are you working with nonprofits in the same group as 
for-profits and in the same group as the agencies of the State 
and FEMA itself? How does that work? We are trying to picture 
in our mind after having been frustrated over and over again by 
the same complaints about here and there and how nonprofits 
couldn't even get into the mix. I need to know what your vision 
is of case management as directed by FEMA.
    Mr. Manning. Thank you, Madam Chair. As I mentioned 
earlier, we are entering into an interagency agreement with HHS 
with the ACF for exactly that. We are dissatisfied as well. We 
in the past have had an inconsistent approach. Clearly we share 
your frustration. The long-term solution and the reason it has 
planned to take until the end of the year is that we can do 
exactly as you are describing, incorporating fine methodology 
to incorporate all of the various private nonprofits, or NGOs 
and PNPs that involve----
    Ms. Norton. It is not rocket science, Mr. Manning. Just 
tell them, You are the designated group for the county that had 
just been under--we just don't see why it is so difficult. And 
we are very concerned within 30 days to get at least some 
outline of how this would operate. We can't tell when the next 
hurricane is coming. We think it is too late for us to have to 
ask that question. We are very fearful that we will be held 
just as responsible as the new administration. Just because we 
have been asking it forever doesn't mean we will continue to 
tolerate what seems to us to be--maybe I am making this overly 
simplistic. Let me ask Mr. Riggen. The Red Cross has been in 
this business longer than government. Mr. Riggen, what is the 
problem? What do you do when, after all, you go in fresh and 
new to a Committee. Yeah, you have Red Cross chapters there. 
Are you able to get at least the services you provide in the 
context you have in the community together under one umbrella 
to work together? You, of course, work with FEMA which may 
have, if anything, destabilized you or in the past may have 
done so. Could you tell us about your experience, bringing 
together the several services that you render as a part of Red 
Cross?
    Mr. Riggen. Thank you, Madam Chairwoman. This is a great 
question. And to build on Congresswoman Edwards' point on 
standards, we have really started to focus now on the recovery 
or the casework and case management standards. In the years 
after Katrina, there was a large focus on mass care, on the 
immediate evacuation needs, and on the sheltering needs. We are 
now getting to some of the real crux of casework and that 
ability of organizations to start to meet with families and not 
only identify the families themselves but to identify their 
needs and to share that information across agencies. One of the 
biggest tragedies is for families is to have to tell their 
stories 12 or 13 times, depending on who they are going to see.
    The Red Cross worked with other agencies after 9/11 to 
build a system called the Coordinated Assistance Network, which 
allows casework to flow between agencies so that if a client 
comes to the Red Cross, tells their story, expresses their 
needs, that case is able to be seen by other agencies and 
shared across the network so the family could then go to see 
that agency and receive services as well, and our caseworker 
can actively push the clients to those resources as they become 
available.
    The other thing that we have done at the Red Cross is we 
have changed our strategy about casework and we have become 
much more holistic on our initial push. Casework must happen in 
the initial week, not months. There has to be that ability to 
go door to door to talk to families in need, elderly who are 
homebound, people with disabilities who can't get out of their 
homes or don't have the transportation. We want to come to your 
front door, have that conversation to see what the needs are 
before the family starts to degrade, before the individual 
decompensates and needs additional assistance. How do we get 
those resources to show up on day 4, on day 5 and then 
transition that data and recovery information to the case 
management, whether they be Federal, local or State? We want to 
be able to provide that resource and be a holistic team to do 
that. So as part of that casework, what we have reinvented is 
not only the caseworker, but also the health worker, the mental 
health worker and bringing in the community alongside with all 
their additional resources that we can provide to a client in 
the weeks, not months, after a disaster.
    Ms. Norton. And I don't see the logistical problem. We live 
in the age of video conferences. I have had video conferences 
with residents from the District of Columbia in Federal prison, 
for God's sake. So I really don't see the issue here, which 
accounts for the concern. Mr. Manning, I hope you understand 
what is our concern. As we understand it, if you are a 
recognized--if you have been dubbed and maybe there is a way to 
do this ahead of time or during the time, if there were an 
unexpected catastrophe, but you have the status of a government 
entity for purposes of reimbursement on some occasions. You, 
the Red Cross, our oldest such service organization. But as I 
understand it, Mr. Manning, other nonprofits or private 
entities which are well recognized and which some say provide 
better service in emergencies and nonemergencies than the 
government can are not recognized and, therefore, cannot be 
reimbursed.
    Do you have a process that will be used or is being used to 
select in advance or during emergencies nonprofits who could 
reach out to be helpful? For example, the American Red Cross 
has itself an agreement with Save the Children and Church of 
the Brethren. I don't know if they get reimbursed.
    Let me ask you both: First, Mr. Manning. I am talking about 
reimbursement for folks trusted in the community. Even more so 
than having the HHS or some Federal Government entity which 
they may have never heard of come in. Under whatever rulemaking 
you are engaged in, will there be a way to formally designate 
more such entities who could be useful to the government and to 
the community in case of a disaster?
    Mr. Manning. Madam Chair, as to the specifics of the 
rulemaking, we can get a report to you within 30 days.
    Ms. Norton. Within 30 days, sir. This is very important to 
learn. We don't have any druthers here. We have had 
heartbreaking testimony from religious organizations, for 
example, from Louisiana willing to offer services, some of whom 
have indeed offered services when FEMA and the State was not 
even present, for whom not a dime of reimbursement. They are 
good Christians or good--and most of the time, they were 
Episcopalians or Catholics who simply couldn't help it. They 
simply came forward. We don't want to at all relax government 
standards, and we want to make sure that you are not aiding 
people of your religious group only, church/state means 
everything to at least this Member and that separation must be 
obtained in the provision of services, as Catholic services, 
for example always recognizes. But we are concerned with those 
who can be most helpful, not those who had a government title 
necessarily who may be strangers in the community, be the 
entities that you can look to. What about this trilateral 
agreement, Mr. Riggen, with Save the Children and the Church of 
Brethren? That is an agreement with you, I take it.
    Mr. Riggen. It is a fantastic agreement, mostly around 
shelters. It is an opportunity for Save the Children to provide 
some resources. Some kids that provide a safe place for 
children in a shelter and those resources come into an 
environment and Church of the Brethren provides a workforce for 
us to be able to provide child care for families in shelters or 
other service delivery sites as they go seek assistance, as 
they spend time with a caseworker or case management to know 
what the next steps are. And that is a program that we do.
    Ms. Norton. That operates as a part of the Red Cross 
services?
    Mr. Riggen. It does, absolutely.
    Ms. Norton. So they would be designated to be reimbursed?
    Mr. Riggen. Most of our services are not. We do not seek 
reimbursement from the Federal Government. They are done--and 
just to speak to the earlier point around the compassion and 
the generosity of the American public, the public has come 
forward in every disaster with immense generosity, and they 
continue to do so. Those funds come from private donations 
large and small, and we work with our partners to help them 
with cost, much like we do now in sheltering.
    If a local church wants to open their doors at shelters, we 
can seek to provide them the training and skill sets to do 
that, and we also help to recover their costs.
    Ms. Norton. That is very important. I want to indicate, we 
are not trying to pay churches for what their religion tells 
them they should be doing anyway. My major concern is that FEMA 
has often contracted--here I am talking about people for whom 
you contract--has often contracted with for-profits before they 
would contract with non-profits who have reputations for 
service delivery. We couldn't understand why a for-profit would 
be better equipped than a non-profit who may have served in the 
community for some time and perhaps be receiving grants from 
the State, why that wouldn't be someone that would be 
considered for this service.
    Mr. Vaughn, you talked about the role of preparedness. You 
talked about warnings, education, transportation and sheltering 
services. You know when people hear us talk about that, Mr. 
Manning, at a hearing where FEMA appears, they may assume that 
this is what FEMA is supposed to do. Could we make clear what 
the role Federal here is, what the State role is? And I want to 
first go to Mr. Vaughn because he raises the question of the 
design of the warning and the education and the transportation, 
the sheltering services which would of course be particularly 
vital to for elderly and disabled people. What have you found 
with respect to those services, Mr. Vaughn, which move people 
around, which warn people who are disabled or elderly? And Mr. 
Manning, is it clear whose responsibility this is? Mr. Vaughn?
    Mr. Vaughn. You know, what we have learned from our 
research again is that most communities, maybe 30 percent, are 
doing the planning they need. And I think a lot of this 
discussion that has been going on here with you all about case 
management, we, again, hear about that. People trying to get in 
touch with Social Security or whatever. I think the bigger 
concern is what happens if we have another disaster? A couple 
of us in this room have roots in Florida and you just know that 
someday that is going to happen. So I think we are not prepared 
locally, and I think people at the local level are looking to 
the Federal Government or to their State governments, yet they 
know they need to be doing it in the local community because 
when the problems hit, that is where the people expect the 
services to be.
    So that is why we see FEMA in this role where people look 
to them or look to the Federal Government. I guess when you are 
looking to the Federal Government, you are looking to FEMA in 
this whole concept that we were talking about of a coherent 
policy where all the different levels are talking and 
communicating with one another. Again, we think that we have 
got to get money down into the local communities through grants 
or whatever so that the planning can happen. Because if not 5 
years from now, we will be talking about who knows what 
disaster and saying, didn't we learn from the lessons.
    Ms. Norton. Well, Mr. Manning, I just want to alert you 
that one of the worst confusions to emerge from Katrina was who 
was responsible for doing what. Now it strikes me--and Mr. 
Shriver talks about working with the city council. It strikes 
me that a lot of this provisional transportation, Mr. Vaughn 
raises sheltering services. You know, FEMA is not supposed to 
fly in like Superman and set this up. I recognize you are new, 
but it does seem to us when we are talking about elderly people 
and children that FEMA stressed that what we are talking about, 
is not the case, mostly State responsibilities.
    Again, here goes the Chairman, a lot of this is written in 
regulations and the rest. But if it was so clear, how come it 
took us time to find out who should have gotten people on 
trains and buses out of New Orleans? It turned out to be a 
State responsibility. Because there was confusion, FEMA wasn't 
sure what to do, whether they were overriding the Governor or 
the mayor. It was pitiful, frankly. My own notion was, you know 
what, if they don't do it, jump in there. Guess what, that is 
what happened. Finally they sent the Coast Guard in and said, 
all hands on deck, but that was after considerable confusion. 
Now Mr. Vaughn, you raised the notion of a regional disability 
coordinator. Now there is, I take it, Mr. Manning, one 
disability coordinator? Boy, is that all we have got for the 
entire country, no regional coordinators? What do you think 
about that, Mr. Manning? Do we need somebody whose job--I am 
not suggesting the proliferation of new jobs in the Federal 
Government. But is there somebody who could take on that 
responsibility in the region? Or do you think the disability 
coordinator recently set up pursuant to statute is sufficient 
for the moment?
    Mr. Manning. Madam Chair, first, we are examining how the 
regions are structured and what responsibilities devolve from 
Washington, from FEMA headquarters to the regions where the 
responsibilities lie and where the functions are best served. 
That examination is happening currently. But I should emphasize 
that as we have discussed today, the solution to this isn't 
necessarily additional functions or additional personnel or 
additional plans or additional initiatives set aside to address 
the gaps. The solution, we believe, is eliminating gaps. It is 
taking care of all the Members of our community, all the 
Members of our society from the beginning, and how we conceive 
of our policy in the first place, how we write our plans in the 
first place, how we do our operational development in the first 
place. We see that as the solution. So while yes, ma'am, we are 
looking at how we are structured in the regions and how we 
would best serve the disability community throughout the 
country, we are at the same time trying to eliminate the need 
for special consideration in our planning and in our policies.
    Ms. Norton. Well, thank you very much. Mr. Cao, do you have 
any further questions?
    Mr. Cao. No, I don't, Madam Chair.
    Ms. Norton. Thank you, Mr. Cao. Mr. Shriver, you have 
focused on children. We have all discussed the context in which 
children and people with disabilities are found. Is the 
implication of your report that there needs to be, quite apart 
from the disability coordinator, a separate focus on children 
or children and families?
    Mr. Shriver. I think the answer to that, Madam Chair, is 
what Mr. Manning just alluded to, which is that instead of 
having an extra senior level person or two people in FEMA be 
designated as the kids person or the disabilities person or 
potentially both, that what needs to happen is it needs to 
permeate the organization. The plans that go forth, the 
frameworks that are proposed across it, but what we don't want 
is for kids to be an addendum because I have talked to 
countless emergency managers across the country, and they have 
these reports.
    By the time they get through the reports or the plans, they 
are exhausted. They don't want to go to the addenda, and that 
is where kids and people with disabilities are often put, in 
the addendum. I think what Administrator Fugate has done and 
what Mr. Manning is talking about, which is the correct 
approach, is to get the special needs populations, including 
kids, to be written in throughout the plans and to be part of 
the entire agency so that you don't have a one-off for kids or 
one-off for people with disabilities. So I think that that 
approach is the right approach. I think the administrator 
deserves credit for that, and I do think, Madam Chair, just to 
your question on case management--I know this isn't exactly 
what you just asked--but I think it was strongly recommended 
that case management reside within HHS, and Congress, in its 
wisdom, gave the appropriations to FEMA to spearhead it. I 
would suggest that FEMA should not be in the business of 
delivering or being held responsible for case management. They 
are part of a team but that it really ought to go to the folks 
that have the experience, like the Administration for Children 
and Families that contracts with Catholic Charities. It is 
delivered by a nonprofit, but that that responsibility ought to 
be primarily with HHS instead of with FEMA, who has other 
mandates out there.
    I think Congress, frankly, made a mistake in shifting that 
responsibility. I don't know whether FEMA agrees with that at 
this point but I think that they are part of that role, and 
they don't have the expertise to be case managers. We ought to 
be giving it to an entity in the Federal Government that has 
the expertise, that focuses in on this, and have FEMA be part 
of that team rather than be the entity that makes those 
decisions. The horse may be out of the barn on that one.
    Ms. Norton. There is something to what you are saying, Mr. 
Shriver. Out of FEMA, there are now certain housing functions 
that were so embedded in HUD that essentially HUD is 
responsible for them, but I can tell you that this Congress, if 
anything, out of FEMA consolidated all of it in the Department 
of Homeland Security, and it runs somewhat counter to your 
notion of trying to deal with these problems in case management 
to say that there is another whole Federal bureaucracy that 
needs to come over into FEMA. The question of priority when you 
are really a part of something else, not ongoing emergency 
management as opposed to saying you are part of a case 
management team because otherwise, we are going to be told that 
people with disabilities, we should hand that over to somebody 
I guess in HHS and people who deal with nursing homes, given 
what happened to the people who were left there, we should give 
that over to them.
    We are going to, I think, go with a regional recommendation 
which is, we still do not see why a Federal Government laced 
together where people have relations across agency lines need 
only go across the street to find one another, why you can't--
and the agencies cannot, by statute, be instructed that in case 
of emergency, HHS, HUD, whoever else shall provide services 
and/or personnel who shall be part of case management which 
must be rendered someplace. If it is going to be rendered under 
somebody, it ought to be somebody who is expert in emergency 
management as somebody in the day care department of HHS may 
not be or somebody who does nursing homes may not be in terms 
of alacrity and rapidity of response.
    Ms. Norton. FEMA has got to convince me that it must be 
dismembered in order for us to get people under the same 
umbrella, working on the same group of people. I still cannot 
understand why a simple decision in FEMA, why that was not 
done. I believe if FEMA had called the Secretaries of the 
various agencies, it would have been done.
    I detest government bureaucracy and love government and 
believe some of my colleagues want to take--we give them 
ammunition for wanting to take apart government precisely 
because we are not able to do commonsense things like get in 
the same room. So I can understand what Mr. Shriver means, and 
I know where the expertise lies, but I also know where the 
priority to deal with an emergency lies. And I know the next 
thing we would be criticized for doing is not rapidly 
responding from one source to one--to one emergency.
    So, you know, it could be six of one and half a dozen of 
another, but I believe that Congress has made that decision.
    We are going to leave this, Mr. Manning--I can tell you and 
you can see, people even want to take some of your service 
away. We are going to leave it to see if this administration 
can do better to serve under one umbrella all that people need.
    And you are there for 4 months. Count on us to have 
hearings within 4 months to see just how far you have gotten in 
carrying out or outlining what you are going to do.
    And I do want to announce--Mr. Riggen, did you have 
something to respond to that? You seemed to be asking for 
attention
    Mr. Riggen. No, ma'am. I am just in solid agreement with 
the role. I want to express that the voluntary agencies have 
moved forward on the case management in unison; and in part of 
the voluntary agencies active in disaster, the national 
organization has come together to create standards around case 
management and casework, and that allows us to share the data 
and to work collaboratively.
    So we are excited to see some progress towards the Federal 
case management, and hope that we ensure that they are both 
connected, that there is not a disparity between the voluntary 
agencies working and the government working, but they are 
connected and well integrated.
    Ms. Norton. If necessary, you know every Federal agency is 
located in regions, the same region where FEMA is. All you have 
got to do--you wouldn't even have to detail. If it got bad 
enough, as in Katrina, you could detail somebody from another 
agency. I mean, these are such obvious things that is a 
presumption in their favor that the agency would have to 
overcome if it decided to do something else.
    Mr. Cao.
    Mr. Cao. Thank you so much, Madam Chair. And, Madam Chair, 
you just alluded to one of the problems that the President 
addressed during his visit to New Orleans this past week is the 
need for the different Federal agencies to be better 
coordinated. I note that he has tasked Secretary Napolitano on 
that task.
    Mr. Manning, could you provide us with a status or at least 
provide us with a written status in the next 2 weeks with 
respect to how this plan to better organize and to better 
coordinate these different Federal agencies is coming along?
    And my other question to you is, besides working with the 
different Federal agencies, do you have a plan in place in 
order to better coordinate organizations like that of Mr. 
Riggen, the Red Cross, as Madam Chair has pointed out to other 
nonprofit organizations, church organizations, to help in 
preparations and in recovery?
    Mr. Manning. Thank you, Congressman Cao. I will answer your 
second question first, in that I do believe we do have a plan 
in place, and whether it is adequately understood and followed 
is probably the question; that we need to do a better job about 
involving our communities and our partners as we develop our 
procedures, as we implement our plans, as we respond to 
disasters.
    That is something we work on every day. We analyze our 
response to every exercise and every disaster and try to find 
where we didn't do well enough and do better the next time. And 
as we revise the national response framework next year, towards 
the end of this year and into next, we will certainly and 
absolutely involve everybody across the response spectrum, 
across the entire team of emergency management.
    You have heard a number of times today, FEMA is not the 
team, it is part of the team. Our responsibility is one to 
bring people to the table, provide the tools and resources in 
order for them to perform their job where necessary, and where 
absolutely necessary, stand by and support of others.
    So the initiatives working better together with the 
interagency, with all of our Federal partners, that is one that 
has improved greatly in recent years and certainly in recent 
months through the Disaster Readiness Group, the DRG, the body 
that works together for disaster preparedness.
    And following up on your question--I am sorry, not your 
question--the question earlier about the integrated planning 
system, as we are revising that system, we are building a new 
planning system in consultation with the interagency. As 
opposed to FEMA or the Department of Homeland Security creating 
and developing and handing over a planning system for the 
entire Federal Government and our interagency partners to work 
together on, we are going to build that in collaboration in the 
beginning. So it will take into account the resource shortfalls 
of other agencies, and we can have true collaboration between 
Federal departments in response to disasters like you have seen 
in your community.
    Mr. Cao. Thank you, Madam Chair.
    Ms. Norton. One final question. I am taking a page out of 
Mr. Shriver's testimony as a kind of model that--and I need to 
know more about it, that he says is already in existence now.
    Now, this has to do only with children, but as a model for 
getting together the disparate agencies, Mr. Shriver says on 
page 4 that the Administrator, Mr. Fugate, has announced, 
quote, "the creation of a children's working group." There is a 
nice word, "working group." If after every disaster you just 
had a working group of case management, you might have what we 
are thinking about.
    Now, maybe we are being too simple, so correct me if I am 
wrong.
    But anyway, let us look at what we have done with this 
children's working group. It says, "which will serve as a 
centralized platform across all FEMA directorates to ensure 
that the unique needs of children are incorporated into all 
disaster plans. The working group is tasked not only with 
identifying and facilitating how best to integrate children 
into all FEMA planning efforts, but also with improving FEMA's 
capacity to work collaboratively with its partners and other 
key nongovernmental stakeholders." So it looks like there would 
be this working group that already understood what to do with 
children.
    The question is, can we have a working group in the 
disaster area which would simply pull in the same way that you 
appear to be doing with respect to thinking through children? 
Where is that? Does it have a chairman? Is it an internal 
group? How does it operate?
    Could we get a working group for each disaster in Florida 
where there is a next hurricane? In Louisiana or Mississippi, 
would that help if each agency was designated--each agency was 
tasked to designate a person in the region, and they already 
are sitting right there to work with the working--the FEMA 
working group?
    Mr. Manning. Thank you, Madam Chair. I think the easy 
answer to the second half of your question is that I believe we 
have that in place through----
    Ms. Norton. Since when?
    Mr. Manning. The planning bodies we have had in place for a 
number of years that have not had the attention, not had the 
focus necessary, but have been----
    Ms. Norton. So you are telling me that there is a working 
group for case management in Louisiana, in each parish already?
    Mr. Manning. No, ma'am.
    What--what I am suggesting is that there was a body--there 
is a body that has been in place that we have given that 
mission. The regional interagency steering committees, the risk 
groups in each one of the FEMA regions, that have designees, 
that have representatives from all of the Federal interagency 
bodies within the region, as has been mentioned earlier.
    And we have been using them in Region 9, based in 
California, to do catastrophic disaster planning, to work 
closely with the community, because they live in the community 
and they are part of the community with another body. We 
pronounce all of our acronyms; the ESFs, the Emergency Support 
Function coordination groups, those are the elite agencies, and 
all of the Federal agencies that are assigned to a particular 
function. So in the case of ESF 6 and the mass care, there are 
bodies both within the Federal interagency led by FEMA here in 
Washington working in coordination with counterparts in--in the 
case of California FEMA Region 9, the Federal Region 9, to do 
exactly as you described, to build----
    Ms. Norton. So in Region 9, where all the agencies are 
located just like they are in every region, there is already a 
case--if there were to be, in that case probably an earthquake, 
case managers would immediately be under the same umbrella and 
be working together based on this model?
    Mr. Manning. The planning is around the response, the 
holistic response to the earthquake. The functions of case 
management under ESF 6 are assigned to Health and Human 
Services. That is the way that disasters are managed. FEMA 
assigns mission tasks, mission orders, to Federal agencies to 
coordinate the response to a particular function.
    In the case of----
    Ms. Norton. I am sorry. Is this preparedness or response or 
both?
    Mr. Manning. This is in response. We plan in preparedness 
and then use the plans in the response phase, yes, ma'am.
    Ms. Norton. So there would be case managers who would be 
pulled out in the event of an earthquake in California, are you 
saying? Or not?
    I am really only interested in the people level. What we 
have heard from FEMA for 5 or 6 years now is that there are 
elements of their bureaucracy that are already pulled together 
to do X, Y. Then real people come in and say, We have never saw 
them before.
    So I am asking about case management in particular. Mr. 
Shriver said that that was in disarray for children, and it 
turns out it was also in disarray for elderly people and 
anybody else who needed to be brought together.
    What I am asking is whether Region 9 is going to give us 
the makings of a case management umbrella for people on the 
ground in case of an earthquake, and whether that could be 
replicated in other regions across the country.
    Mr. Manning. Madam Chair, I believe that that will be the 
case.
    We have written--we are writing prescriptive assignments. 
We are identifying a particular task with a particular team to 
go and perform, in the case of case management, that function.
    That--that initiative is happening here in Washington, not 
specific--that particular initiative, not specific to Region 9, 
but it is happening. So that wherever a disaster may occur, the 
Health and Human Services will--the Administration for family--
for Children and Families will lead that mission and to the 
people, to the team, will deploy in the immediate hours of a 
disaster, yes, ma'am.
    Ms. Norton. Mr. Manning, I am encouraged by what you say. I 
urge you to use Region 9 where you appear to already have begun 
work as a kind of pilot.
    I was a Federal Government official heading an agency at 
one time, and I found the agency in total and complete 
disarray. In putting it together, I did not say, Okay, I know 
what to do. And I thought I knew what to do; I had done 
something similar at the State level.
    I said, Let's do this. I said, We will do pilot projects. 
We are not omniscient; we will see if this works in a 
particular location.
    Since we are talking preparedness and not a disaster--of 
course, that would be--for example, if case managers were 
already understood to be who they were, where they would come 
from, if the agency had already designated people as case 
managers during the time, from the various agencies that would 
be involved, that is what I am talking about.
    As a result of--we chose, in this case, three sections of 
the country, and the successes there and some of the 
deficiencies taught us what to do. We were able to essentially 
reform the agency from the ground up based on experimentation 
within the agency, learning from our mistakes.
    And what I am afraid of is that we will be in a situation 
like FEMA was last year. There were ice storms, there were 
floods; so they had to kind of figure it out, all in a number 
of different emergencies at the same time.
    FEMA did a better job. But we do really still get a seat-
of-your-pants rather than a nimble emergency response from 
FEMA. And part of it is that preparedness is a whole lot more 
than, you know, making sure that there is water on the ground, 
is making sure that there are people on the ground prepared to 
serve people, as Mr. Riggen says.
    One thing to look at is how would you get people door to 
door in an earthquake? Could you do it? As Mr. Riggen said, if 
you don't do it in the first week, forget about it; they are 
going to try to make their way to a shelter.
    So we would like to see some kind of case in point in 
operation because of our exasperation from the community, from 
complaints from the community throughout the years on case 
management following Katrina.
    We use these hearings as assignments and as problem-solving 
missions. We do not gather information at hearings. We can read 
the report. We use it to cross-examine the government 
officials, to hear further from those in the private and 
nongovernment sector, and then to try to figure out how to 
actually get something done. And we measure ourselves and the 
agency by which--by the notion of whether out of the hearing 
has come concrete action that, at the end of the year, we can 
point to. And that is why FEMA received so much criticism 
before, because we saw it, Mr. Manning. We hadn't accomplished 
very much, and we hadn't gotten FEMA to accomplish more.
    We were very quick to commend FEMA for very significant 
improvement that was made and, frankly, not slow to criticize 
FEMA when people kept coming--from Mississippi and Louisiana, 
in particular--to complain particularly about case management.
    We had one of the worst hearings in my career in the 
Congress regarding people who were left in trailers for the 
longest time and regarding the most vulnerable people under 
Katrina. These were the people who lived alone, who were 
disabled, who were able to care for themselves when they were 
elderly; and FEMA told them their time was up. And they never 
had any place to go before and they didn't have any place to go 
then.
    And then FEMA said, But we are providing you with a place 
and FEMA was providing them with a place. And we had HUD 
before. HUD said, That's right, FEMA's right; we have got the 
place.
    And what was not in place was the case management, somebody 
who would take that person--not as a statistic, as somebody who 
is blind and lives alone and now is being told to go to some 
far-off county to live alone, but as somebody with a case 
manager who would have been willing to go to that adjoining 
county to live if set up with the proper case management.
    That is complicated work, but we are convinced it can be 
done; and it is a standard that we know your administration is 
committed to.
    May we thank each and every one of you for very useful 
testimony and we will hold all concerned, those from the 
private sector, accountable. And we know we have an 
administration that does want to improve in this regard.
    This hearing is adjourned.
    [Whereupon, at 4:31 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
